LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 23, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE NO. 21-242:

DESIRE, LLC V. MANNA TEXTILES, INC., ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae American Society
of Media Photographers, Inc., California Society of Entertainment Lawyers, and
National Press Photographers Association, and three other creator rights organizations
on August 23, 2021, I caused service to be made pursuant to Rule 29 and the
Temporary Order of April 15, 2020 on the following counsel for the Petitioner and
Respondents:
PETITIONER:
Stephen M. Doniger
Scott Alan Burroughs
Kelsey M. Schultz
Benjamin F. Tookey
DONIGER/BURROUGHS
603 Rose Avenue
Venice, California 90291
(310) 590-1820
stephen@donigerlawfirm.com

RESPONDENTS:
Aaron L. Renfro
Samuel G. Brooks
Melinda Evans
Scott P. Shaw
CALL & JENSEN, A Professional
Corporation
610 Newport Center Drive
Suite 700
Newport Beach, CA 92660
(949) 717-3000
ARenfro@Calljensen. com
SBrooks@Calljensen.com
MEvans@Calljensen.com
SShaw@Calljensen.com

This service was effected by depositing one copies of the Brief of Amici Curiae
in an official “first class mail” receptacle of the United States Post Office as well as by
transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 23rd day of August 2021.

